                         U.S. Department of Agriculture

                            Office of Inspector General
                                      Southeast Region




               Audit Report




  Cooperative State Research, Education, and
Extension Service Compliance with the Improper
       Payments Information Act of 2002




                            Report No. 13601-0002-At
                                        January 2005
                                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                         OFFICE OF INSPECTOR GENERAL
                                                       Washington D.C. 20250


DATE:                  January 7, 2005

REPLY TO
ATTN OF:               13601-0002-At

SUBJECT:               Cooperative State Research, Education, and Extension Service Compliance
                       With the Improper Payments Information Act of 2002

TO:                    Colien Hefferan
                       Administrator
                       Cooperative State Research, Education and Extension Service

ATTN:                  Louise Ebaugh
                       Deputy Administrator
                       Office of Extramural Programs


This report presents the results of our audit of the Cooperative State Research, Education, and
Extension Service’s (CSREES) compliance with the Improper Payments Information Act (IPIA)
of 2002,1 and the requirements and implementing guidance issued by the Office of Management
and Budget (OMB) and the Office of the Chief Financial Officer (OCFO). The audit was
conducted as part of a Department-wide audit of USDA’s implementation of the IPIA. We
found that CSREES had not performed individual risk assessments for programs with outlays in
excess of $10 million and thus was not in compliance with the provisions set forth by OMB and
OCFO.

BACKGROUND

The IPIA requires the head of each agency to annually review all programs and activities the
agency administers to identify those that may be susceptible to significant improper payments.
OMB issued guidance for implementing the IPIA on May 21, 2003. This guidance required each
agency to report the results of its estimates for improper payments and corrective actions in the
Management Discussion and Analysis (MD&A) section of USDA’s Performance and
Accountability Report for fiscal years ending on or after September 30, 2004. OMB also defined
significant improper payments2 and specified that if programs or activities exceeded this
threshold, agencies must develop a statistically valid estimate to report to Congress. Finally,
OMB required agencies to submit their implementation plans by November 30, 2003.




1
    Public Law (P.L.) 107-300, November 26, 2002.
2
    OMB defined significant improper payments as annual erroneous payments exceeding both 2.5 percent of program payments and $10 million.
    See OMB Memorandum M-03-13, dated May 21, 2003.
Colien Hefferan                                                                                                   2


The OCFO, designated as the lead agency for coordinating and reporting the Department’s
efforts to implement the IPIA, provided instructions to agencies in August and October 2003.
The August memorandum transmitted Departmental policy and instructions for implementing
program reviews to identify erroneous payments. The instructions included the detailed
guidance from OMB regarding implementation and requirements for the IPIA.3 The guidance
from OMB provided that agencies examine the risk of erroneous payments in all programs and
activities they administer. In a memorandum dated October 9, 2003, OCFO provided additional
guidance to CSREES on implementing the requirements of the IPIA and requested that all
agencies provide an IPIA implementation status report.4 The memorandum required that all
programs with outlays of $10 million or more annually must undergo a risk assessment to
determine if there is significant risk of erroneous payments. The memorandum also requested:
(1) A chart detailing dates for risk assessments that have been completed; (2) planned dates for
completion of remediation plans for programs with significant erroneous payments; and
(3) planned dates when the agency will have determined its baseline plus improvement targets
for the next 3 fiscal years (FY).

CSREES reported 15 programs with outlays of $841 million that met OCFO’s threshold for
performing risk assessments. These included the Smith-Lever and Hatch Formula Grants,
Natural Research Initiative Competitive Grants, and Research and Education Activities at Land
Grant Universities.

OBJECTIVE

The objective of the audit was to evaluate the actions taken by CSREES to assess the
susceptibility of its programs to improper payments in accordance with the IPIA and the
implementing guidance issued by OMB and OCFO.

SCOPE AND METHODOLOGY

We performed our audit at CSREES’ Headquarters in Washington, D.C. We conducted our audit
from May through September 2004.

To complete our audit objective, we:

       •     Reviewed OMB’s and OCFO’s requirements and guidance for reporting and estimating
             improper payments;

       •     Interviewed CSREES’ officials and program managers and examined documentation to
             determine what they had done to implement the IPIA;



3
    OCFO Guidance, Requirements for Implementing IPIA, August 11, 2003.
4
    OCFO Guidance, Update on Requirements for Implementing the IPIA, Public Law 107-300, dated October 9, 2003.
Colien Hefferan                                                                                 3


   •   Reviewed the U.S. Government Accountability Office (GAO); OMB Circular A-133
       (hereafter referred to as A-133); and Office of Inspector General (OIG) audit reports of
       CSREES’ programs and operations (three reports issued between 1998 and 2002); and

   •   Reviewed CSREES’ FMFIA reports for 2002-2003.

The audit was performed in accordance with Government Auditing Standards.

FINDING AND RECOMMENDATION

CSREES Was Not in Compliance With the Improper Payments Information Act

CSREES identified 15 programs in which outlays exceeded the OCFO $10 million threshold for
which it should have performed individual risk assessments. CSREES did not perform the
necessary risks assessments, however, in accordance with the implementing guidance issued to
them by OCFO. CSREES’ process was limited to a mathematical calculation; specifically,
program outlays were multiplied by 2.5 percent, and if less than $10 million, CSREES’ officials
concluded that the individual risk assessments were not required and thus they did not have to
determine if controls were in place to mitigate the risk that improper payments occurred. The
2.5 percent criterion represented, however, the “floor” of the tolerable error rate established by
OMB. The individual agencies were required to estimate its potential error rate through the risk
assessment process, and then fulfill the remaining requirements, if applicable.

For example, the largest CSREES’ program was reported to be the Smith-Lever “3 b and c”
Extension Activity (with $272 million in annual outlays). However, if for example, CSREES’
risk assessment disclosed a potential error of even 5 percent, improper payments would have
been $13.6 million. In this example, provided for illustration purposes only, since both the
quantitative level of improper payments and the error rate exceeded the OMB criteria, CSREES
would be required next to statistically estimate the improper payment amount and develop
corrective action plans, et al. A potential error rate below 10 percent would require similar
actions for at least three additional programs. Nonetheless, CSREES was required to establish
the error rate of each of the 15 programs and then compute the potential improper payment
account for each.

The extent of CSREES’ assessment was limited to a review of prior GAO, OIG, and A-133 audit
reports, an internal review of South Carolina State University, and their working knowledge of
the programs. The insights garnered from reviews of these types may lend assurance regarding
the functionality of selected controls at varying points in time and locations but should not be
relied on in lieu of a risk assessment process geared towards evaluation of the overall internal
control structure. Regardless, CSREES reported to OCFO on November 20, 2003, that an
assessment had been done on the 15 programs but that none were susceptible to significant
improper payments.
Colien Hefferan                                                                                   4


In conclusion, CSREES had not employed the proper process to assess programs individually to
identify where risk of improper payments might occur, determined if controls were in place to
mitigate these risks, rated the extent of the risks, and documented the rationale for its conclusion
as to the susceptibility to improper payments, as applicable. Because of the manner in which
programs were assessed, there is no assurance that improper payments were identified and the
requirements of the IPIA met.

At the exit conference, CSREES officials informed us that they take the improper payment
initiative very seriously but had misinterpreted the guidance regarding what they needed to do.
As a result of our evaluation of the implementation of the OCFO guidance by CSREES and the
other agencies included within our overall scope, we concluded that the requirements and
instructions issued by the Department need to be made more prescriptive, detailed, and clarified.
We have made a recommendation to that effect to OCFO in our rollup report to the Department.

RECOMMENDATION

Perform individual risk assessments for all programs and activities with outlays of $10 million or
more. Determine the specific error rate in each program and perform subsequent improper
payment analyses accordingly. Establish controls to ensure the timely and accurate completion
of the assessments.

AGENCY POSITION

CSREES is participating, along with other USDA agencies, in the IPIA Work Group organized
by OCFO. In addition, CSREES stated the completion date for meeting the FY 2005 IPIA
requirements would be November 15, 2005 (see Exhibit A).

OIG POSITION

Based on the information contained in the response, dated December 14, 2004, we cannot accept
management decision. CSREES’ proposed implementation date of November 15, 2005, far
exceeds the completion date of April 30, 2005, when completed risk assessments are required to
be submitted to the OCFO. Further, CSREES did not formally agree to implement the
recommendation but only alluded to the IPIA Work Group. In order to reach management
decision, therefore, we need to know the specific actions to be taken in response to the
recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation. Please
note that the regulation requires management decision to be reached on the finding and
recommendation within a maximum of 6 months from report issuance, and final action be taken
within 1 year of management decision.
Colien Hefferan                                                                          5


We appreciate the courtesies and cooperation extended to our staff during this review.



/S/
ROBERT W. YOUNG
Assistant Inspector General
   for Audit

Attachment
EXHIBIT A- AGENCY RESPONSE
Page 2 of 2
